                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

 Case Number: I05050017                                                                      Page 1 of 1



         National Science Foundation, OIG opened this investigation based on information provided by a
         student' at a university2. The student claimed that a Prinicipal Investigator (PI)3promised to pay
         the student $5000 from REU funding for a summer position. The student provided e-mail
         documentation of the agreement and complained that he received less than $2000.

         The investigation confirmed that the student received $1868.50 in REU funding through a
         position supported by a NSF Grant4,which included $6000 of REU funding. The university
         reported that the student worked under the PI and recieved appropriate payment for the work
         provided. The university also reported that the remaining REU funding will expire on January
         3 1,2006. The NSF Program Officer agreed that the current funding expires on January 3 1,2006.

         We concluded that the university adequately accounted for all REU funds provided under the
         NSF Grant.

         Accordingly, this case is closed.




NSF OIG Form 2 (1 1/02)

                                                                                                    I
